No. 19-73
IN THE SUPREME COURT OF THE UNITED STATES
_________________
MICHAEL W. GAHAGAN, PETITIONERS
v.
CITIZENSHIP & IMMIGRATION SERVICES, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via email and first-class mail,
postage prepaid, this 13th day of September, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3,299
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
September 13, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 13, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

19-0073
GAHAGAN, MICHAEL W.
CITIZENSHIP & IMMIGRATION SERVICES
KATHERINE S. BARRETT WIIK
BEST & FLANAGAN LLP
60 SOUTH SIXTH STREET
SUITE 2700
MINNEAPOLIS, MN 55402
612-341-9710
KBARRETTWIIK@BESTLAW.COM
CAROLYN ELEFANT
LAW OFFICES OF CAROLYN ELEFANT PLLC
1440 G STREET, NW
8TH FLOOR
WASHINGTON, DC 20005
202-297-6100
CAROLYN@CAROLYNELEFANT.COM
MAHESHA P. SUBBARAMAN
SUBBARAMAN PLLC
222 S. STREET
SUITE 1600
MINNEAPOLIS, MN 55402
612-315-9210
MPS@SUBBLAW.COM

VIA EMAIL

